                                                                                                   Report No. 05-008
                                                                                                        March 2005

                                     FDIC’s Supervision of a Financial Institution’s
                                     Compliance With the Bank Secrecy Act
                                     Results of Audit

Background and Purpose               Responsibilities to ensure compliance with the BSA were not adequately fulfilled by
        of Audit                     either institution management or the FDIC. Corporate governance at the financial
                                     institution and two former institutions was not sufficient to ensure that they met BSA
Congress enacted the Bank
                                     requirements. The FDIC’s examinations identified significant BSA violations and
Secrecy Act (BSA) of 1970 to
                                     deficiencies, but the examinations generally lacked sufficient follow-up on corrective
prevent banks and other financial
                                     measures promised but not implemented by institution management. Consequently,
service providers from being used
                                     weak BSA compliance programs persisted for extended periods. In addition, the FDIC
as intermediaries for, or to hide
                                     should have more thoroughly considered the impact of BSA compliance violation and
the transfer or deposit of money
                                     deficiency histories in connection with the Corporation’s decision to qualify the
derived from, criminal activity.
                                     potential acquirers of a failed institution.
The BSA requires financial
institutions to maintain
appropriate records and to file      Recommendations and Management Response
certain reports used in criminal,
tax, or regulatory investigations    The report makes the following recommendations to FDIC management:
or proceedings. Responsibility
for implementing and complying       •   Propose a requirement to the Treasury and the other federal banking regulators that
with BSA requirements is shared          institution management periodically certify the implementation and oversight of an
among the financial institutions         institution’s BSA compliance program.
responsible for implementing         •   Emphasize institution compliance with BSA requirements through continued
BSA compliance programs and              outreach to the financial services industry on the requirements of the BSA, the USA
the regulatory agencies                  PATRIOT Act, and the implementing regulations.
responsible for examining the        •   Require transaction testing in all BSA compliance examinations by expanding core
institutions to ensure BSA               procedures to include transaction testing.
compliance. The Federal Deposit      •   Require examiners to perform at least the core and expanded BSA examination
Insurance Corporation (FDIC) is          procedures at FDIC-supervised institutions if any one of a defined set of BSA
authorized to examine financial          assessment factors is present.
institutions for BSA compliance,     •   Ensure that the adequacy of the BSA compliance program is a key component in
impose regulatory actions, and           the assignment of the management rating for safety and soundness examinations.
refer significant BSA violations     •   Assess, in conjunction with the other federal banking regulators, the merits of a
and deficiencies to the                  numeric rating system for BSA compliance.
Department of the Treasury           •   Issue BSA supervisory and enforcement action guidance that outlines how the BSA
(Treasury).                              assessment factors will be considered in determining appropriate action to be taken
                                         as part of the BSA examination process.
The objective of this audit was to   •   Develop an internal control process to verify that all BSA violations are promptly
determine whether the FDIC               included in the systems used to report this information to the Treasury.
adequately fulfilled its
                                     •   Establish an inter-divisional task force to revise FDIC policies and procedures to
responsibilities to monitor and
                                         define the process to be used during franchise marketing to ensure that BSA
assure a financial institution’s
                                         compliance issues are appropriately considered.
compliance with the BSA. The
                                     •   Clarify policies and procedures regarding information that should be specifically
audit included a review of
                                         considered in approving purchase and assumption transactions.
selected institutions whose assets
                                     •   Establish procedures to eliminate institutions with inadequate BSA compliance
and insured deposits had been
                                         programs from consideration for eligibility to bid on franchises or failed bank
sold by the FDIC to the
                                         assets.
institution that was the principal
focus of our audit. The audit
                                     FDIC concurred with our findings and is making significant improvements in its
report contains extensive
                                     supervision of institution BSA compliance programs in response to our
examination-related and other
                                     recommendations and its own initiatives.
sensitive information and will not
be made publicly available.
